No. 20-5379
IN THE

Supreme Court of the United States
KEITH ADAIR DAVIS,

v.

Petitioner,

STATE OF WASHINGTON.

Respondent.
On Petition for a Writ of Certiorari to the
Supreme Court of Washington
CERTIFICATE OF SERVICE
I, Jaime A. Santos, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s
Order of April 15, 2020) that I have, this 27th day of October, 2020, served petitioner’s
letter to the Hon. Scott S. Harris upon each party separately represented in this
proceeding by causing an electronic copy of the same to be delivered to counsel of
record at the email address listed below:
James Morrissey Whisman
Jim.whisman@kingcounty.gov
October 27, 2020

/s/ Jaime A. Santos
Jaime A. Santos
GOODWIN PROCTER LLP
1900 N Street, NW
Washington, DC 20036
JSantos@goodwinlaw.com
(202) 346-4000
Counsel for Petitioner

